                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     EPA Has Made Progress in
                     Assessing Historical
                     Lead Smelter Sites But Needs
                     to Strengthen Procedures
                     Report No. 14-P-0302                   June 17, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Tina Lovingood
                                                    Jill Trynosky
                                                    Jenny Drzewiecki
                                                    Jim Kohler
                                                    Kate Robinson




Abbreviations

CERCLA          Comprehensive Environmental Response, Compensation, and Liability Act
CERCLIS         Comprehensive Environmental Response, Compensation, and Liability
                Information System
EPA             U.S. Environmental Protection Agency
FOIA            Freedom of Information Act
NPL             National Priorities List
OIG             Office of Inspector General
OSRTI           Office of Superfund Remediation and Technology Innovation
OSWER           Office of Solid Waste and Emergency Response
PA              Preliminary assessment
ppm             parts per million
SEMS            Superfund Enterprise Management System
SI              Site inspection


Cover photo:     EPA removal action at the former Loewenthal Metals Corp. lead smelter in
                 Chicago, Illinois. (EPA photo)



Hotline                                        Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
through one of the following methods:          contact us through one of the following methods:

email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:    EPA Inspector General Hotline        write:    EPA Inspector General
          1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2410T
          Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency                                                  14-P-0302
                                                                                                           June 17, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review
                                    EPA Has Made Progress in Assessing
We conducted this review to         Historical Lead Smelter Sites But Needs to
determine how the U.S.
Environmental Protection            Strengthen Procedures
Agency (EPA) has addressed
the sites in its August 2012         What We Found
Lead Smelter Strategy. The
2012 Strategy focuses on 464        It took the EPA more than 12 years to                Improvements in guidance and
historical lead smelter sites       complete the preliminary site assessment             procedures for managing
identified in 2001, also known      work at the 464 Eckel sites. According to the        contaminated sites could result
as “Eckel sites.” W e also          Office of Solid Waste and Emergency                  in more efficient and effective
examined the actions the EPA        Response, when the EPA learned of the                use of limited resources and
has taken to inform                 Eckel sites in 2001, it distributed the list to      result in public health and
communities near the Eckel          regional offices for informational purposes          economic benefits.
sites of potential lead             only. Because the Eckel sites were not
contamination.                      submitted to the EPA through the public petition process, there were no
                                    acceptance criteria or time limits for screening and assessment of the sites. The
The Eckel sites are located         EPA’s ability to work on the Eckel sites was also impacted by an existing backlog
across the country, primarily in    of over 2,200 potentially contaminated sites. As a result, the EPA’s regional
urban areas. The EPA’s              efforts to assess the Eckel sites were inconsistent. The overall absence of a
Superfund site assessment           process for the Eckel sites and other non-petitioned sites, as well as a lack of
process, used to assess sites       initial direction from the EPA, led to the inefficient use of agency resources.
like the Eckel sites, was
designed to evaluate potential      In addition, we found that the EPA lacked sufficient tracking, transparency and
hazardous waste sites that may      guidance on technical aspects of addressing the Eckel sites. Further, the EPA did
pose a threat to human health       not effectively convey to the public the details concerning its lengthy efforts and
and the environment and to          the challenges it faced in addressing the Eckel sites. Although the EPA has made
determine if a site may warrant     progress in addressing the Eckel sites, the EPA’s breakdown in applying
cleanup attention. The EPA          standard, transparent criteria and guidance for assessing the sites resulted in
developed its 2012 Lead             inefficiencies in the site assessment process and impacted the EPA’s credibility
Smelter Strategy to ensure that     regarding its management of the Eckel sites. Specifically, improvements in
all Eckel sites would be            guidance and procedures for managing contaminated sites could result in more
assessed.                           efficient and effective use of limited resources, as well as have public health and
                                    economic benefits.
This report addresses the
following EPA goal or                Recommendations and Corrective Actions
cross-agency strategy:
                                    We recommend that the EPA establish a clear process for handling potentially
  Cleaning up communities          contaminated sites not referred to the EPA by a public petition, and that the EPA
   and advancing sustainable        re-evaluate guidance to ensure that regions are able to efficiently spend
   development.                     resources addressing the highest priority sites. To increase transparency and
                                    public awareness of the EPA’s efforts, we recommend the publication of the
For further information,            EPA’s 2012 strategy document and any subsequent findings. The EPA agreed
contact our public affairs office
                                    with our recommendations and provided acceptable corrective actions. The
at (202) 566-2391.
                                    recommendations are resolved with corrective actions underway.
The full report is at:
www.epa.gov/oig/reports/2014/
20140617-14-P-0302.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                   THE INSPECTOR GENERAL




                                            June 17, 2014

MEMORANDUM

SUBJECT:      EPA Has Made Progress in Assessing Historical Lead Smelter Sites
              But Needs to Strengthen Procedures
              Report No. 14-P-0302

FROM:         Arthur A. Elkins Jr.

TO:           Mathy Stanislaus, Assistant Administrator
              Office of Solid Waste and Emergency Response

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

The EPA office having primary responsibility for implementing the audit recommendations in this report
is the Office of Superfund Remediation and Technology Innovation located in the Office of Solid Waste
and Emergency Response.

Action Required

In accordance with EPA Manual 2750, your offices provided acceptable and complete corrective actions
or planned corrective actions in response to OIG recommendations. All recommendations are resolved
and no final response to this report is required. We will post this report to our website at
http://www.epa.gov/oig.

Should you have any questions, please contact Carolyn Copper, Assistant Inspector General for Program
Evaluation, at (202) 566-0829 or copper.carolyn@epa.gov; or Tina Lovingood, Director, Land Cleanup
and Waste Management Evaluations, at (202) 566-2906 or lovingood.tina@epa.gov.
EPA Has Made Progress in Assessing Historical                                                                             14-P-0302
Lead Smelter Sites But Needs to Strengthen Procedures




                                  Table of Contents

 Chapters
   1    Introduction ......................................................................................................     1

                Purpose .....................................................................................................   1
                Background................................................................................................      1
                Scope and Methodology ............................................................................              5

   2    Site Assessment Process, Guidance Does Not Fully Address
        Some Issues Encountered at Eckel Sites .......................................................                          7

                EPA Does Not Have Criteria or a Time Limit for Reviewing and
                     Assessing All Potentially Contaminated Sites......................................                         7
                Internal EPA Strategy Created to Address Eckel Sites ...............................                            9
                Existing Backlog, Resources Impacted Earlier Attempts to
                     Address Eckel Sites ............................................................................           11
                Delay in Addressing Contamination Can Reduce
                     Projected Economic Benefits to Society ..............................................                      12
                OIG Review of Selected Eckel Site Documents Identified a Site
                     Needing Further Assessment ..............................................................                  13
                Additional Challenges Faced by EPA in Implementing 2012 Strategy ........                                       13
                EPA Did Not Fully Communicate or Publicize Overall Strategy Efforts .......                                     15
                Conclusions ...............................................................................................     16
                Recommendations .....................................................................................           17
                Agency Response to Draft Report and OIG Evaluation ..............................                               18

   Status of Recommendations and Potential Monetary Benefits .............................                                      20



 Appendices
   A    Agency Response to Draft Report...................................................................                      21

   B    Distribution .......................................................................................................    27
                                              Chapter 1
                                               Introduction
Purpose
                  The U.S. Environmental Protection Agency (EPA) Office of Inspector General
                  (OIG) evaluated the EPA’s response to contamination by historical lead smelters.
                  Specifically, we focused our review on sites included in the EPA’s 2012 “Strategy
                  for Addressing 464 Lead Smelter Sites.” We addressed the following questions:

                           What has the EPA done to address the sites in its August 2012
                            Lead Smelter Strategy?
                           What actions has the EPA taken to inform communities of the potential
                            lead contamination in order to reduce the potential of exposure to lead?

Background
                  In April 2001, the American Journal of Public Health published “Discovering
                  Unrecognized Lead Smelting Sites by Historical Methods.”1 This study, also
                  known as the Eckel study, claimed that 464 former lead smelter sites2 were
                  unknown to federal and state authorities. The study also stated that sampling
                  results taken from 10 sites indicated that nine of the sites may pose a threat to
                  public health.

                  In April 2012, USA Today reported that the EPA had known about the issue of
                  residential contamination caused by these smelters since 2001, yet claimed the
                  EPA had not acted to address the contamination and left many neighborhoods
                  exposed to health risks. In May 2012, a group of U.S. Senators called on the EPA
                  to take immediate action to review unassessed sites to determine priority locations
                  for remediation, such as those near schools or playgrounds. In August 2012, the
                  EPA created a document outlining its strategy for addressing these former smelter
                  sites.

                  The EPA developed the 2012 Strategy to ensure successful completion of any
                  remaining Superfund site assessment work at the 464 historical smelter sites. In
                  the strategy, the EPA stated it would consider prioritization of assessments and, as
                  necessary, cleanups for sites under certain circumstances, including sites near
                  where children may gather, sites with potential environmental justice issues, and

1
  Eckel, W., Rabinowitz, M., and Foster, G., 2001, Discovering Unrecognized Lead-Smelting Sites by Historical
Methods, American Journal of Public Health, v.91 (4): 625-627.
2
  The list of smelter sites is informally referred to as the “Eckel list” or “Eckel sites” after William Eckel, who was
the primary author of the 2001 journal article identifying these sites. The smelter list in the Eckel study identified
approximately 430 sites and the number of sites was later updated to include 464.


14-P-0302                                                                                                                 1
            sites with sample results indicating contamination above risk-based screening
            levels and background.

            Secondary Lead Smelting

            The Eckel study used historical sources to identify sites in the United States
            where secondary lead smelting was done from 1931 to 1964. Historical sources
            included the Standard Metal Directory and Year Book of the American Bureau of
            Metal Statistics. Secondary lead smelters produce elemental lead and lead alloys
            from lead-bearing scrap material. The smelters were often small operations
            located in urban areas close to the source of scrap, such as automobiles.

            Secondary lead smelting includes three major operations: scrap pretreatment,
            smelting and refining. Scrap pretreatment is the partial removal of metal and
            nonmetal contaminants from lead-bearing scrap and residue. Smelting produces
            lead by melting and separating the lead from metal and nonmetallic contaminants
            and by reducing oxides to elemental lead. The crude lead is then refined in
            furnaces.

            Health Risks from Lead

            The smelter pollution at the sites targeted for review in the EPA’s August 2012
            “Strategy for Addressing 464 Lead Smelter Sites” is lead and possibly other
            heavy metals that contributed to environmental contamination in soil or dust.
            According to the EPA, lead is a naturally occurring element that can be harmful to
            humans when ingested or inhaled, particularly children under the age of six. Lead
            poisoning can cause a number of adverse human health effects, but is particularly
            detrimental to the neurological development of children. The EPA classifies lead
            as a probable human carcinogen and a cumulative toxicant. A 2007 Agency for
            Toxic Substances and Disease Registry lead fact sheet states that exposure to high
            lead levels can severely damage the brain and kidneys in adults or children and
            ultimately cause death. According to the Agency for Toxic Substances and
            Disease Registry, the effects of lead are the same whether it enters the body
            through breathing or swallowing. Lead can affect almost every organ and system
            in the body.

            EPA Program to Address Contamination

            Under the 1980 Comprehensive Environmental Response, Compensation, and
            Liability Act (CERCLA) and related laws, the EPA’s Superfund program
            identifies, investigates and cleans up America’s most contaminated hazardous
            waste sites. Superfund cleanup data are stored in the Comprehensive
            Environmental Response, Compensation, and Liability Information System
            (CERCLIS) database. CERCLIS is the official repository for site- and non-site-




14-P-0302                                                                                    2
                 specific Superfund data.3 According to the Office of Solid Waste and Emergency
                 Response (OSWER), CERCLIS contains information on hazardous waste site
                 assessment and remediation from 1980 to the present.

                 The Superfund cleanup process has steps to assess sites, place them on a National
                 Priorities List (NPL), and establish and implement appropriate cleanup plans. This
                 is a long-term cleanup process. Sites that score at or above an established level
                 qualify for cleanup under Superfund and are proposed for listing on the NPL, a
                 list of the most serious sites identified for long-term cleanup and eligible for fund-
                 financed remedial action.

                 In addition, under CERCLA, the agency has the authority to:

                        Conduct removal action where immediate action needs to be taken.
                        Enforce against potential responsible parties.
                        Ensure community involvement.
                        Involve states.
                        Ensure long-term protectiveness.

                 Petition Process for the Public to Notify EPA of Potential
                 Contamination

                 The Superfund site assessment process begins with site discovery or notification to
                 the EPA of possible releases4 of hazardous substances. The EPA may be notified of
                 a potentially contaminated site through various mechanisms, including receipt of a
                 public petition; referrals from other EPA programs; and referrals or notifications
                 from states, tribes and other federal agencies. The process for the public to notify
                 the EPA of suspected releases—including lead-contaminated sites—is the petition
                 process, created via CERCLA Section 105(d). EPA requires these petitions to meet
                 certain criteria and contain specific information about the possible release or
                 releases. Within 12 months of receipt, the EPA is expected to review the public
                 referral or petition, approve or return the petition, and conduct a preliminary
                 assessment if the petition is approved. EPA headquarters estimates that about 10 to
                 20 sites of the approximately 200 new sites brought to the EPA’s attention each
                 year are based on petitions. For potentially contaminated sites brought to the
                 agency’s attention through means other than the petition process, there is currently
                 no acceptance criteria or timeframe for conducting a pre-CERCLIS screening
                 assessment.




3
  According to an EPA website, the Superfund program is in the process of deploying a new information system—
the Superfund Enterprise Management System (SEMS)—which is replacing CERCLIS. SEMS will include the same
data and content as CERCLIS.
4
  EPA preliminary assessment guidance defines the term “release” to include any means by which a substance could
be exposed to the environment, such as spilling, leaking, discharging, dumping, injecting and escaping.


14-P-0302                                                                                                     3
            EPA Process to Assess Sites With Potential Contamination

            The Superfund site assessment process includes multiple phases. Community
            involvement can occur at any point in the process. The first phase—the process of
            reviewing data on a potential site to determine whether it should be entered into the
            CERCLIS active site inventory for further evaluation—is referred to as
            pre-CERLIS screening. Some examples of why a site would not receive further
            evaluation for an EPA cleanup action include:

                  It is currently in CERCLIS or has been removed from CERCLIS and no
                   new data warrants re-entry into CERCLIS.
                  The site and some contaminants found on the site are subject to certain
                   limitations based on CERCLA definitions.
                  A state or tribal remediation program is involved in response at the site
                   and it is in the process of a final cleanup.
                  The hazardous substance release at the site is regulated under a statutory
                   exclusion (e.g., petroleum, natural gas).
                  The hazardous substance release at the site is deferred to another authority.
                  Site data are insufficient (i.e., based on potentially unreliable sources or
                   with no information to support the presence of hazardous substances or
                   CERCLA-eligible pollutants or contaminants).
                  Documentation clearly demonstrates that there is no potential for a release
                   that could cause adverse environmental or human health impacts.

            As demonstrated in the site assessment flow chart in figure 1, if a site moves past
            the pre-CERCLIS screening, the next phase is the preliminary assessment (PA).
            The PA involves gathering ownership history and other available information
            about site conditions to evaluate whether the site poses a threat to human health
            and the environment and/or further investigation is needed. The site inspection
            (SI) tests air, water and soil at the site to determine what hazardous substances are
            present. The SI looks at the substances present and determines whether they are
            migrating to the environment and are a threat to human health. Information
            collected in the PA/SI phase helps the EPA evaluate the risks posed by the site
            using its Hazard Ranking System.




14-P-0302                                                                                       4
            Figure 1




            Source: EPA.


            Responsible Office

            OSWER’s Office of Superfund Remediation and Technology Innovation (OSRTI)
            is the EPA headquarter office primarily responsible for the Eckel sites.

Scope and Methodology
            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our audit objectives. We believe that
            the evidence obtained provides a reasonable basis for our findings and
            conclusions based on our audit objectives. We conducted our work from
            July 2013 to March 2014.

            We interviewed OSWER staff—including staff in OSRTI—as well as staff in EPA
            Regions 2, 3 and 5. These three EPA regions were selected because they had the
            highest number of Eckel sites. We also interviewed staff from outside the EPA,
            including the Agency for Toxic Substances and Disease Registry, the Illinois
            Environmental Protection Agency, and the Pennsylvania Department of Health.
            Field visits were also conducted at multiple smelter sites in Regions 3 and 5.

            In addition to the EPA’s August 2012 “Strategy for Addressing 464 Lead Smelter
            Sites,” we reviewed EPA programs, regulations and guidance documents related
            to the discovery and assessment of Superfund sites. Those documents included
            relevant sections of CERCLA, the National Contingency Plan, the December
            2012 Superfund Implementation Manual, OSRTI website guidance, the October
            2002 Preliminary Assessment Petition Guidance, the Superfund Community


14-P-0302                                                                                    5
                    Involvement Handbook and the Superfund Lead-Contaminated Residential Sites
                    Handbook.

                    We reviewed the available documentation for a sample of 42 historical smelter
                    sites from the Eckel list. We identified 22 of these sites from counties with the
                    highest number of Eckel smelter sites and counties in states with the highest
                    number of children with elevated blood lead levels.5 Random selection was used
                    to select the other 20 sites (two sites from each of the 10 EPA regions).
                    Documentation was compared with the data available in CERCLIS and was also
                    reviewed for completeness and whether it supported the assessment decision.

                    The scope of our review included actions the EPA took to assess contamination at
                    the Eckel sites before, during and after the development of the 2012 Strategy. We
                    also estimated the total cost to conduct assessment work at the Eckel sites based
                    on the average national historical cost data provided by OSRTI. Additionally, we
                    monetized the human health benefits of reducing lead exposure from the smelter
                    sites and other sources.




5
    Information is based on U.S. Center for Disease Control data from 2009.


14-P-0302                                                                                               6
                                           Chapter 2
    Site Assessment Process, Guidance Does Not Fully
     Address Some Issues Encountered at Eckel Sites
                 It took the EPA more than 12 years to complete preliminary site assessment work
                 at the Eckel sites. This occurred because there was a lack of EPA criteria for
                 determining whether to accept or reject a non-petitioned site, an absence of target
                 completion dates for assessing potentially contaminated sites, an existing backlog
                 of other sites needing assessment work, and limitations in guidance on how to
                 address urban lead contamination. Further, while the EPA stated it communicated
                 with the public on a site-by-site basis where it determined a need, it did not
                 publicize its August 2012 Lead Smelter Strategy. Communicating the 2012
                 Strategy publicly and sharing results of its implementation could better serve
                 communities and other stakeholders who may have questions about sites near
                 them. The development of the 2012 Strategy appeared to be driven by Freedom of
                 Information Act (FOIA) requests, congressional interest and media coverage.
                 Improvements in guidance and procedures for managing potentially contaminated
                 sites could result in more efficient and effective use of limited resources as well as
                 public health and economic benefits.

EPA Does Not Have Criteria or a Time Limit for Reviewing and
Assessing All Potentially Contaminated Sites
                 A scientific journal listed the Eckel sites. The site list was not brought to the EPA
                 as a petition, nor did the EPA consider it a petition. For the list to be considered a
                 petition, it would need to meet the criteria identified in table 1. Since the Eckel list
                 was not a CERCLA 105(d) petition, the EPA was not bound by the statutory6
                 12-month review period. According to EPA guidance, if it receives and acts on
                 petitions that are general, unclear or do not have enough information, or are without
                 clear impact to the petitioner, valuable time and resources are taken away from
                 more serious problems. The EPA further states in its guidance that petitions without
                 the required information will be returned to the petitioner.

                 The EPA processed the sites on the Eckel list as it would any site that enters the site
                 assessment process under CERCLA. No criteria exists for determining whether the
                 EPA should accept or decline to pursue pre-CERCLIS screening work at non-
                 petition sites. Further, if additional work is conducted, no EPA requirements or
                 guidance exist for identifying a reasonable timeframe for conducting pre-CERCLIS
                 screenings or setting target dates for future site assessments at non-petitioned sites.



6
  When the EPA is alerted to potentially contaminated sites by a public petition submitted under CERCLA 105(d),
the EPA has a 12-month timeframe to review and assess the site or explain why the assessment is not appropriate.


14-P-0302                                                                                                          7
                 Table 1. EPA’s criteria for accepting petition under CERCLA compared to Eckel list
                              Criteria for petition                    Attributes of 464 Eckel list sites
                   Contains the full name, address,               List not submitted by the journal author as
                   telephone number and signature of the          a petition to the EPA; therefore, no
                   person submitting the petition.                submitter contact information or signature
                                                                  included.
                   Includes a description of how the              List did not include description of how the
                   petitioner is, or may be, affected by the      journal author was, or could be, affected by
                   actual/potential release. Concerns a           the actual/potential release at each site.
                   release that affects the petitioner.
                   Contains the location of the actual/           Location of the actual/potential release was
                   potential release.                             insufficient for 78 sites.
                 Source: OIG analysis of EPA 9200.5-330FS guidance document and the EPA's 2007 Headquarters
                 Lead Smelter Site Project Report.

                 Using the EPA’s criteria above, had the Eckel list been submitted as a petition, it
                 should have been returned. The Eckel list did not contain enough information
                 about all of the 464 sites to allow the EPA to take action without expending
                 additional resources. As an alternative to returning the entire list, the EPA could
                 have made the determination to reject or not pursue additional work at the sites on
                 the list with missing information. Instead, according to OSWER, the Eckel list
                 was distributed to regional offices in 2001 for informational purposes only.
                 No direction was provided on whether and when the sites should be reviewed.
                 According to OSRTI staff, no assessment requirements were established because
                 of the limited site information in the Eckel list. As a result, some regional offices
                 pursued work on the Eckel list sites while some did not.

                 From 2001 to 2012, EPA regions assessed between two and 38 Eckel list sites per
                 year. According to a January 2007 internal EPA document, OSRTI implemented a
                 site identification project from January 2005 to November 2006 focused on
                 identification of any unreported sites posing high human health risks. The OSRTI
                 project concentrated on a sample of 31 Eckel sites. The project concluded that
                 OSRTI’s role should be limited to managing the refinement and regional
                 distribution of any large volume site listings submitted to the EPA for potential
                 federal Superfund attention; EPA regions can then incorporate and prioritize these
                 sites as appropriate within existing site assessment workloads.

                 Once the untracked Eckel sites became part of the EPA’s workload, the EPA used
                 pre-CERCLIS screening forms at most of the remaining sites to determine whether
                 further site assessment work was needed. The completion of pre-CERCLIS
                 screening forms for even the ineligible Eckel sites took time because the EPA had
                 incomplete information for some sites.7 EPA staff we spoke with told us that in
                 some cases they spent more time reviewing historical documents to find site
                 locations and boundaries than is usual for a pre-CERCLIS screening. Some sites

7
  Pre-CERCLIS checklist information not readily available or incomplete for some Eckel sites included site location
and information on the release at the site. Sites that do not meet the pre-CERCLIS screening form criteria may be
ineligible under CERCLA, which means they do not qualify for further assessment.


14-P-0302                                                                                                         8
                 had been paved over for many years or contained large office buildings where no
                 public exposure route was present. For example, according to the EPA, the Wrigley
                 Building in Chicago, Illinois, is at an Eckel site. The EPA stated in a January 2007
                 internal report that, given the age of the Wrigley Building, it is probable that the
                 offices, not the smelter for the Michigan Smelting and Refining Company, were
                 located at the site and the site does not appear to pose a risk to humans.

Internal EPA Strategy Created to Address Eckel Sites
                 In July 2012, the EPA developed a CERCLIS tracking report to monitor progress
                 at the Eckel sites. The EPA created the Lead Smelter Strategy in August 2012 to
                 ensure successful completion of the remaining Superfund site assessment work at
                 the 464 smelters. The 2012 Strategy purpose also stated it was necessary to
                 determine the extent to which new information recently made available to the
                 EPA could affect planned, ongoing and completed assessments and identify
                 smelters that may pose a health threat requiring further assessment and, as
                 necessary, cleanup.

                 In addition, OSRTI staff told us the 2012 Strategy was created to establish a
                 framework for completing and documenting the EPA’s work on the Eckel sites in
                 the midst of continuing FOIA and media requests, congressional interest and
                 awareness of new sampling data. According to OSRTI staff, in late 2010, the EPA
                 began receiving multiple FOIA requests, many from the news media, for
                 information about the current status of the Eckel sites. One region we interviewed
                 estimated that it received 13 FOIA requests. In addition to information requests,
                 USA Today conducted sampling at some Eckel sites. Although the EPA was
                 unable to review the sampling details, USA Today’s test results identified high
                 levels of lead in the soil, sparking concern and prompting the EPA to reassess
                 some sites.

                 The EPA did not have a cost estimate for the 2012 strategy, nor did it track the
                 personnel costs associated with implementing it. In the last few years of its work
                 on the Eckel list sites, we estimate the EPA spent a substantially larger portion of
                 money on site assessment work. As of 2013 the Eckel site assessment cost was
                 estimated to be $14.7 million,8 while since 2012 we estimate the EPA spent
                 $9.2 million9 or more on the Eckel site assessments. The EPA staff we spoke with
                 in three regions said that the 2012 Strategy involved a more extensive process,
                 and site assessments were more resource intensive compared to other sites
                 brought to the EPA for review.




8
  Estimates are based only on the average cost to complete assessment activities (considering contractor and EPA
costs). The site status covers all Eckel site assessment work conducted by the EPA through November 2013.
9
  The estimate is based on data from February 2012 to November 2013. OSWER’s CERCLIS tracking report for the
Eckel smelter sites provides February 2012 as a baseline starting point for the 2012 Strategy.


14-P-0302                                                                                                      9
            2012 Strategy Resulted in Completion of All Site Screenings

            The 2012 Strategy stated that the EPA would consider prioritizing Eckel sites for
            assessment and, as necessary, cleanup. Circumstances the EPA would consider in
            its prioritization efforts included:

                   Sites where sampling results indicate the presence of lead or other heavy
                    metals attributable to past smelter operations and above risk-based
                    screening levels and background.
                   Sites located near where children may gather or be active (e.g., residential
                    areas, day care centers and schools).
                   Sites where population density is high (e.g., population within a
                    quarter-mile of the listed address).
                   Sites with potential environmental justice issues.

            We found that these factors and the prioritization effort had a limited impact on
            the completion of site assessments. For over 216 of the 464 sites, EPA regions
            had already conducted site assessments before the 2012 Strategy was
            implemented. Because the regions were planning to assess all remaining sites
            within a 14-month timeframe, one region we spoke with told us the order in
            which the sites were assessed was influenced by other factors, including
            proximity to EPA and state offices. The EPA’s estimated timeline for smelter-
            related activities in the 2012 Strategy included the completion, to the maximum
            extent practicable, of preliminary assessments for all 464 sites by October 31,
            2013. Pre-CERCLIS screenings and/or preliminary assessments were completed
            by the end of November 2013 for all Eckel sites.




            Example of EPA removal action at former Loewenthal Metals Corp.
            lead smelter—an Eckel site in Chicago, Illinois. (EPA OIG photo)

            Figure 2 on the following page shows the rate at which site assessments for the
            Eckel list sites were completed and entered into CERCLIS as of November 2013.
            The number of assessments rose sharply in 2012. We attribute this to
            implementation of the 2012 Strategy. Figure 2 shows that 50 percent of all Eckel



14-P-0302                                                                                     10
            sites were assessed in just the last 2 years. The figure only includes those sites for
            which a site assessment has been completed. Of the 464 Eckel list sites, figure 2
            includes 440 of the sites. For the remaining 24 sites not shown, 19 were duplicates
            and further assessment is still needed at five sites.

             Figure 2: History of Eckel sites marked “assessment complete” in CERCLIS,
             November 2013




             Source: OIG analysis of 2013 EPA CERCLIS data using non-NPL date or proposed
             NPL date assigned. The (*) next to 2012 highlights the year in which the EPA’s Strategy
             was developed.

            As of November 2013, the EPA had determined that of the 464 Eckel list sites,
            approximately 290 sites (over 60 percent of the total sites) were determined to be
            invalid and therefore did not qualify for further assessment under CERCLA. In
            contrast, 50 of the 464 sites qualified for potential cleanup actions due to human
            health and environmental risks, according to OSWER’s tracking reports. Of those
            50 sites, 32 were referred to the removal program, seven were proposed to be
            placed on or were placed on the final NPL, one is listed as part of an NPL site,
            three were deferred to the Resource Conservation and Recovery Act program,
            six were being cleaned up by states or private parties, and one has not yet had the
            cleanup program determined. Five of the seven sites that were proposed to be
            placed on or were placed on the NPL were proposed to the NPL prior to 2001.

Existing Backlog, Resources Impacted Earlier Attempts to Address
Eckel Sites
            The EPA had a site assessment backlog of about 5,100 sites in the active site
            inventory in 2001. According to OSWER, this backlog currently stands at about
            2,200 sites. The backlog consists of sites that have completed pre-CERCLIS
            screening and are subsequently added to the active site inventory. It does not


14-P-0302                                                                                              11
                 include sites that the EPA has determined require an initial pre-CERCLIS
                 screening because EPA headquarters does not formally track this category. While
                 some Eckel sites were on the assessment backlog because they had already been
                 screened and found to be CERCLA eligible, others remained on the untracked,
                 screening backlog. We found that the volume of these sites and the existing
                 assessment backlog, as well as a lack of information on many, caused some
                 regions to put a lower priority on the Eckel sites relative to their existing
                 workload.

                 During the implementation of the 2012 Strategy, the EPA identified certain
                 factors that could be used to prioritize assessment of the Eckel sites, as noted
                 earlier. However, some regional site assessment managers had difficulty applying
                 these factors and comparing these sites to those already in the backlog before
                 initial screening. Once screening is completed and more site-specific information
                 is gathered, the EPA could then use site-specific factors to assign each site a
                 qualifier (e.g., “high priority” and “low priority”). These qualifiers are already
                 defined and available within the CERCLIS program. The EPA could better use
                 these qualifiers to determine whether time is being spent addressing sites that are
                 of the highest priority, and to communicate to outside stakeholders the basis for
                 determining the agency’s priorities and timeline for site assessment. The delay in
                 addressing Eckel sites may be justified if the risk from other sites in the backlog
                 was greater than the risk posed by the Eckel sites, but the EPA did not formally
                 conduct such an analysis.

Delay in Addressing Contamination Can Reduce Projected Economic
Benefits to Society
                 The delay in addressing lead contamination is not insignificant. For the Eckel list
                 sites, 50 were referred to cleanup programs because they had the potential to
                 impact public health. While protecting human health is the EPA’s primary
                 mission, resources spent to remove and remediate lead contamination can also
                 result in projected economic benefits to society. According to a 2011 study,10
                 lead poisoning for children in the United States cost $50.9 billion (in 2008
                 U.S. dollars) in lost economic productivity resulting from reduced cognitive
                 potential from preventable childhood lead exposure and an additional $5.9 million
                 in medical care costs. A 2009 study11 suggests that each IQ point loss represents a
                 loss of $17,815 in discounted value of lifetime earnings (in 2006 U.S. dollars).
                 Another study from 200212 estimated an economic gain of $2,350 to $5,500 in
                 increased lifetime earnings per child for each microgram per deciliter blood lead


10
   Trasande L., and Liu Y. (2011) “Reducing the Staggering Costs of Environmental Disease in Children, Estimated
at $76.6 Billion in 2008.” Health Affairs, Volume 30, No. 5:863-870.
11
   Gould, E. (2009) “Childhood Lead Poisoning: Conservative Estimates of the Social and Economic Benefits of
Lead Hazard Control.” Environmental Health Perspectives, Volume 117:1162–1167.
12
   Grosse S., Matte T., Schwartz J., Jackson R. (2002) “Economic Gains Resulting from the Reduction in Children’s
Exposure to Lead in the United States.” Environmental Health Perspectives. Volume 110, No. 6:563-569.


14-P-0302                                                                                                      12
                 reduction (in 2000 U.S. dollars). Furthermore, a 2013 study13 estimated the
                 benefits from cleanup under the Superfund program and found that, by analyzing
                 census tract-level data within a 3-mile radius, the median home values increase by
                 20.8 percent after cleanup. Backlogs in site assessment activities can delay
                 cleanup actions that lead to these economic benefits.

OIG Review of Selected Eckel Site Documents Identified a Site
Needing Further Assessment
                 In addition to our review of EPA activities related to the Eckel sites, we
                 conducted a review of the site-specific documentation for a sample of 42 Eckel
                 sites across all 10 EPA regions. Our goal was to confirm that EPA actions at these
                 Eckel sites were currently supported by documentation. We found the EPA was
                 initially missing documentation for one of the 42 sites. Subsequent pre-CERCLIS
                 screening activities showed that additional assessment to ensure protection of the
                 nearby residents and community was needed. Assessment activities, including
                 sampling, were necessary because of the site’s location in a residential area in
                 close proximity to a school. The assessment activities will also include
                 community outreach and reporting.

Additional Challenges Faced by EPA in Implementing 2012 Strategy
                 The EPA had additional challenges in using the CERCLA statutory framework to
                 efficiently implement the 2012 Strategy. These include:

                        Delineating and cleaning up sites, including those in and around urban
                         areas where the background levels of lead are high.
                        Linking the source of lead contamination to the historical former lead
                         smelters.
                        Determining potential impact on communities when data on health
                         impacts, including blood lead level data, are unavailable.

                 According to EPA guidance, CERCLA response actions are undertaken to address
                 a release or threat of release of a hazardous substance such as lead into the
                 environment. In certain cases, such as the secondary former lead smelters on the
                 Eckel list, it may be appropriate to use CERCLA authorities to conduct sampling
                 and site characterization activities to determine the source of the lead
                 contamination and to differentiate between various site-related sources. However,
                 one region that we visited stated that it found overarching difficulties in tracking
                 and managing lead issues. The regional contacts we spoke with questioned
                 whether CERCLA was the appropriate statute to address areas with lead
                 contamination since it does not specifically address cleanup in circumstances
                 when the background levels of contamination are equal to or higher than the site

13
  Gamper-Rabindran S., and Timmins C. (2013) “Does cleanup of hazardous waste sites raise housing values?
Evidence of spatially localized benefits.” Journal of Environmental Economics and Management. Volume 65,
Issue 3, Pages 345-360.


14-P-0302                                                                                                   13
                  under review. Both regions we visited and OSRTI managers stated that it is
                  difficult to identify the various sources of lead in urban environments.

                  Under the Toxic Substances Control Act, Section 403, the EPA defines a soil lead
                  hazard as bare soil on residential property, or on property of a child-occupied
                  facility, that contains concentrations of lead equal to or exceeding 400 parts per
                  million (ppm) in the play area or an average of 1,200 ppm in the rest of the yard.
                  The Superfund program uses a 400 ppm screening level for residential
                  properties.14 In addition to the soil lead concentration, the potential for a health
                  concern is related to several other factors, including the age of the person exposed
                  as well as the level and duration of exposure.

                  The EPA conducted sampling at some of the sites we reviewed and identified lead
                  levels in excess of 1,500 ppm both at the site and in surrounding areas.
                  Background15 levels of lead in urban areas can be high. Generally, the CERCLA
                  program does not clean up sites to concentrations below natural or anthropogenic
                  background levels. It is therefore difficult for regions to delineate sites and clean
                  up contaminated property in many urban environments. Nonetheless, the
                  contamination still exists and presents a potential risk to public health. For these
                  cases, engineering controls (such as creating reliable barriers to mitigate the risk
                  of lead exposure) as well as non-engineering controls (such as education and
                  health intervention programs) can be appropriate response actions under
                  CERCLA. However, because such non-engineering controls are not permanent,
                  these actions may not be preferred remedies.

                  In addition to the complications of determining where and how to focus cleanup
                  efforts in highly contaminated environments, EPA assessment managers we spoke
                  with experienced challenges in linking lead contamination directly to the former
                  smelter sites. Lead releases in soil can come from multiple sources, including
                  paint and car exhaust. Lead from historical smelter sites may have degraded over
                  time. One of the regions we visited conducted a pilot study to identify the source
                  of lead through speciation.16 However, this method can be time consuming and
                  costly and, therefore, may not be widely used. Given the potentially broad
                  statutory authority CERCLA provides to the EPA to conduct a removal and/or
                  remedial action, the agency should determine whether and where it is necessary to
                  use limited assessment resources to link contamination to a source.

                  According to regional interviews, the EPA does not have definitive guidance on
                  source confirmation or cleanup decisions in areas with high background lead
                  levels. Generally, there is a lack of blood lead level data available to inform

14
   Screening levels are defined as a level of contamination above which there may be enough concern to warrant
site-specific study of risks.
15
   For the CERCLA cleanup program, EPA policy defines “background” as constituents or locations that are not
influenced by the releases from a site and are usually described as naturally occurring or anthropogenic.
16
   Speciation is a technique used to identify the specific type of lead that can be used to distinguish smelter lead from
other lead sources.


14-P-0302                                                                                                             14
            assessment decisions. Often, data most widely available is at the county level,
            which is not detailed enough to link blood lead levels to a source. EPA Region 3
            is planning voluntary testing of community members for blood lead levels near a
            smelter site to determine whether there are potential health impacts from the site.
            Linking soil contamination at historical secondary lead smelter sites to current
            public health issues and environmental conditions is further complicated by high
            levels of lead in urban environments and the historical nature of the pollution.
            Additionally, according to OSWER, health impacts like community-wide blood
            level data cannot be incorporated into the current pre-remedial Hazard Ranking
            System scoring process.

            Based on our regional interviews, review of the CERCLA statute, and existing
            guidance, the extent that resources should be expended to link contamination to a
            site to then utilize CERCLA funds for cleanup is unclear. In February 2013,
            OSRTI developed an internal discussion draft which outlined considerations and
            challenges associated with evaluating Eckel list sites for placement on the NPL.
            The internal document identified challenges evaluating Eckel sites, including
            where there were background levels of contamination and distinguishing between
            lead smelter and other sources of pollution in urban areas, but it did not address
            all circumstances or constitute formal program guidance. The lack of information
            and clear guidance on assessing lead at former smelter sites created uncertainty
            for the site assessment managers we spoke with. For sites where the level of
            cleanup, source of contamination and potential health impact were uncertain and
            guidance was not clear, EPA actions could be inconsistently and inefficiently
            applied. This could result in differences in the level of protection and cleanup
            from one community to another as well as potential delays in addressing sites that
            could impact public health.

EPA Did Not Fully Communicate or Publicize Overall Strategy Efforts
            The August 2012 Lead Smelter Strategy outreach and coordination section noted
            that EPA headquarters would explore the development of a “boilerplate”
            communications strategy to help regions proactively respond to concerns raised
            by the public. The EPA considered, but did not develop, any boilerplate
            communications for the regions. According to regional staff, there were relatively
            few public inquiries received on the sites and, where inquiries were received,
            regional staff developed site-specific responses. Regions were in regular
            communication with EPA headquarters on progress made assessing the Eckel list
            sites. Progress was tracked and reported on a quarterly basis for the number of
            sites assessed and monthly conference calls were held. No metrics, milestones or
            consistent information on the type of communication used at sites was included in
            the quarterly reports or otherwise tracked. As a result, we were unable to
            determine the full extent of the EPA’s communication and outreach efforts and
            any overall impacts on public health and community awareness.




14-P-0302                                                                                     15
            With the exception of access agreements for sampling, no requirements exist for
            communicating with the public during either the PA or SI phase. According to
            EPA guidance, the agency does involve the community at sites that garner public
            interest and at sites during the PA/SI phases. The regions we visited—Regions 3
            and 5—were both involved with community outreach during the PA stage.
            Region 3 had prepared a draft outreach document on lead smelters, lead
            contamination, exposure and prevention for residents in case of inquiry.

            The EPA has not made its August 2012 Lead Smelter Strategy available to the
            public on its website. An OSRTI manager explained that it was OSRTI’s decision
            to use the 2012 Strategy as an internal planning and management tool rather than
            to publicize it. Nonetheless, a news organization obtained the document through a
            FOIA request in September 2012 and posted it to a public website. EPA took no
            subsequent actions to release the strategy document.

            The EPA’s decision not to publish its strategy for assessing the Eckel list sites
            may result in reduced public awareness of its efforts and time spent to address
            these sites. The EPA generally did not emphasize in communications with the
            public and media that it received minimal details for many of the sites, nor did it
            disclose that the Eckel list was not submitted as a petition and was being
            addressed through the EPA’s cleanup process. In addition, EPA senior officials
            were quoted in news articles about the Eckel list, but the agency’s actions and
            process for addressing the Eckel sites were not included in the article and the EPA
            did not follow up with this information on its own website or an EPA press
            release.

Conclusions
            The EPA’s pre-CERCLIS screenings and site assessments for Eckel list sites,
            tracked under the 2012 lead strategy, were completed more than 12 years after the
            EPA received and distributed the list. The EPA does not have decision criteria or
            required timeframes for screening and assessing potentially contaminated sites
            that come to its attention outside the petition process. By distributing the Eckel
            list to regional offices in 2001 for informational purposes only, the EPA created
            an awareness of the sites without a clear expectation for action. Without criteria
            and initial direction for assessing these 464 sites, agency resources in some cases
            were inconsistently and inefficiently used. The EPA spent time reviewing sites
            where the locations and existence of historical smelters were unclear. Moreover, it
            initially overlooked some sites that were later found to need clean-up actions.
            Establishing a clear process that includes decision criteria for accepting a non-
            petitioned site as well as target dates for screening and assessment may improve
            the timeliness in which sites are addressed. In addition, the application of criteria
            can increase consistency in decisions made across EPA regions.

            The EPA has a site assessment backlog of over 2,200 sites. These sites compete
            for a limited amount of EPA resources. The EPA currently has no requirement to


14-P-0302                                                                                     16
            prioritize new sites with existing sites in its backlog. Additional limitations
            include some EPA regional uncertainty about the extent that resources should be
            spent to link contamination to a source that would then enable the EPA to address
            a site under CERCLA. Also, EPA regions lack definitive guidance to prioritize
            site assessments in areas with high background levels of lead contamination.
            Regions also need instruction on determining actual or potential site-related health
            impacts, particularly in areas where data of this type are unavailable or
            incomplete. Existing guidance should be re-evaluated to ensure that regions are
            able to efficiently spend future resources addressing the highest priority sites.

            Better communicating EPA efforts to address the Eckel sites may increase public
            awareness of how the EPA is taking steps to mitigate risk to public health.
            Improved communication may also help to reduce the resources used to respond
            to FOIAs and media inquiries and help to sustain EPA credibility in this area.

Recommendations
            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response:

               1. Establish criteria for determining upfront whether to expend resources to
                  conduct a pre-CERCLIS screening and/or add a non-petitioned site
                  referred to the EPA Superfund site assessment program to the EPA’s
                  existing workload. Document and communicate decisions made in EPA
                  records.

               2. Refine the process for tracking non-petitioned sites referred to the EPA
                  Superfund site assessment program, including:

                       a. Definition of a reasonable timeframe that pre-CERCLIS screenings
                          and site assessments should be conducted. If needed, a discovery
                          date should be entered as well as target dates for future
                          assessments.
                       b. Establishment of a tracking mechanism for any backlog of
                          pre-CERCLIS screenings.
                       c. Periodic reviews to ensure that sites in the assessment backlog
                          have appropriate qualifiers that indicate priority level for further
                          assessment.

               3. Assess existing EPA guidance for addressing lead contamination in soil
                  within the Superfund site assessment process and obtain input from the
                  regions to determine whether any updates are needed and revise as
                  appropriate. Include the following issues in the assessment:

                       a. Amount of resources, level of effort and methods used to link lead
                          contamination to a source.


14-P-0302                                                                                    17
                       b. Cleanup or other actions needed at sites when background
                          contamination levels are above screening levels, including those in
                          urban areas.
                       c. Determination of actual and/or potential health impact on
                          communities, including whether a referral to another agency or
                          program for further review or health-based testing is necessary.

               4. Clearly post the August 2012 lead smelter strategy document on the
                  EPA’s website.

               5. Following completion of the 2012 Strategy, create and post a summary of
                  the results of the EPA’s efforts to address sites included in the strategy
                  and, as applicable, any findings and recommendations on the EPA’s
                  website.

Agency Response to Draft Report and OIG Evaluation
            We received comments on the draft report from the Assistant Administrator for
            OSWER (appendix A). In its response, OSWER stated that it uses its limited
            Superfund site assessment resources to address a wide variety of sites brought to
            its attention by various public and private entities using a “worst sites first”
            philosophy to guide the prioritization of site assessment work. OSWER expressed
            concern over the description of the EPA’s initial response to the Eckel sites and
            noted that it distributed the list to its regional offices for informational purposes
            only. According to OSWER, it required the regions to assess a small number of
            the Eckel sites following a 2007 EPA site identification project. However,
            OSWER stated it did not require the addition of any remaining Eckel list sites to
            the workload until the 2012 strategy was developed.

            We reviewed additional supporting information provided by OSWER in its
            response to the draft report. The information did not show that OSWER explicitly
            stated that the Eckel list sites were to be viewed for informational purposes only,
            nor did the information show that OSWER provided any specific direction to
            regional offices regarding the Eckel list. We clarified our portrayal of the EPA’s
            initial response based on this information. The agency’s response also included
            some technical comments, which were incorporated into the final report as
            appropriate.

            The agency agreed with all recommendations and provided a corrective action
            plan as well as estimated completion dates. The plan provided steps the agency
            would take to address the recommendations, including many actions already in
            the planning stages. In a subsequent communication, OSWER confirmed that its
            corrective actions for recommendation 2a would include entry of discovery dates,
            if needed, and explained that it will use a new project management software
            component of SEMS to track this element. In addition, OSWER clarified that it
            will include all aspects of recommendation 3 (3a, 3b and 3c) in its assessment of


14-P-0302                                                                                      18
            existing guidance. Based on the proposed corrective actions and subsequent
            communication with OSWER, the OIG believes the agency’s actions, when
            implemented, should address all recommendations.




14-P-0302                                                                                19
                                Status of Recommendations and
                                  Potential Monetary Benefits
                                                                                                                                      POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                                  BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion        Claimed    Agreed-To
    No.      No.                            Subject                             Status1      Action Official           Date           Amount      Amount

     1       17    Establish criteria for determining upfront whether to          O       Assistant Administrator      9/30/14
                   expend resources to conduct a pre-CERCLIS                               for Solid Waste and
                   screening and/or add a non-petitioned site referred to                 Emergency Response
                   the EPA Superfund site assessment program to the
                   EPA’s existing workload. Document and communicate
                   decisions made in EPA records

     2       17    Refine the process for tracking non-petitioned sites           O       Assistant Administrator      9/30/14
                   referred to the EPA Superfund site assessment                           for Solid Waste and      (for all parts,
                   program, including:                                                    Emergency Response             a-c)
                      a. Definition of a reasonable timeframe that
                         pre-CERCLIS screenings and site assessments
                         should be conducted. If needed, a discovery date
                         should be entered as well as target dates for
                         future assessments.
                      b. Establishment of a tracking mechanism for any
                         backlog of pre-CERCLIS screenings.
                      c. Periodic reviews to ensure that sites in the
                         assessment backlog have appropriate qualifiers
                         that indicate priority level for further assessment.

     3       17    Assess existing EPA guidance for addressing lead               O       Assistant Administrator      9/30/16
                   contamination in soil within the Superfund site-                        for Solid Waste and      (for all parts,
                   assessment process and obtain input from the regions                   Emergency Response             a-c)
                   to determine whether any updates are needed and
                   revise as appropriate. Include the following issues in
                   the assessment:
                      a. Amount of resources, level of effort and methods
                         used to link lead contamination to a source.
                      b. Cleanup or other actions needed at sites when
                         background contamination levels are above
                         screening levels, including those in urban areas.
                      c. Determination of actual and/or potential health
                         impact on communities, including whether a
                         referral to another agency or program for further
                         review or health-based testing is necessary.

     4       18    Clearly post the August 2012 lead smelter strategy             O       Assistant Administrator      6/30/14
                   document on the EPA’s website.                                          for Solid Waste and
                                                                                          Emergency Response

     5       18    Following completion of the 2012 Strategy, create and          O       Assistant Administrator     12/31/15
                   post a summary of the results of the EPA’s efforts to                   for Solid Waste and
                   address sites included in the strategy and, as                         Emergency Response
                   applicable, any findings and recommendations on the
                   EPA’s website.




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




14-P-0302                                                                                                                                               20
                                                                                  Appendix A

                  Agency Response to Draft Report




Thank you for the opportunity to respond to the issues and recommendations in the subject audit
report. Following is a summary of the agency’s overall position, along with its position on each
of the report recommendations. For those report recommendations with which the agency agrees,
we have provided high-level intended corrective actions and estimated completion dates to the
extent we can. There are no report recommendations with which the agency does not agree. For
your consideration, we have included a Technical Comments Attachment to supplement this
response.

AGENCY’S OVERALL POSITION
   We concur with all of the OIG’s proposed recommendations and, as specified in the
    attached chart, have initiated or planned corrective actions.

      Every year, EPA uses its limited Superfund site assessment resources to address a wide
       variety of sites brought to our attention by various public and private entities. EPA
       regions work with their state and tribal partners to determine which sites will be
       evaluated. Historically, EPA applies the philosophy of “worst sites first” to guide the
       prioritization of site assessment work.




14-P-0302                                                                                        21
        We are concerned about statements describing when the 464 Eckel sites were added to
         EPA’s existing workload since they may imply an expectation to complete this work
         dating back to 2001.

        While EPA became aware of the list of potential sites in 2001, the list generally lacked
         sufficient site detail to add them to the workload. EPA distributed the list to its regional
         offices for informational purposes only. Our Regional offices did add some of these sites
         to the existing workload and conducted assessments based on their research of this list.
         EPA’s site identification project completed in 2007 focused on those sites from the 2001
         list that had not already been added to the existing workload. At that time, OSWER
         required the regions to assess a small number of these sites based on certain key criteria.
         The results of these assessments concluded that the newly assessed sites from the 2001
         list generally did not pose sufficient contamination needing response under the Federal
         Superfund program. Thus, no additional requirements were made to add any remaining
         sites to the workload. However, in early 2012, EPA learned of new sampling results from
         media reports suggesting some of the 464 sites with no planned EPA involvement had
         soil lead contamination above health-based benchmarks. That is when EPA decided to
         develop the 2012 lead strategy ensuring remaining sites were added to the workload and
         assessed as necessary.

AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

 No.     Recommendation              High-Level Intended             Estimated Completion by
                                     Corrective Action(s)            Quarter and FY
 1       Establish criteria for      OSWER agrees with this          4th Quarter FY 2014
         determining upfront         recommendation. OSWER is
         whether to expend           currently revising the October
         resources to conduct a pre- 1999 Pre-CERCLIS Screening
         CERCLIS screening and/or Assessments fact sheet as an
         add a non-petitioned site   action item under the
         referred to the EPA         Superfund Remedial Program
         Superfund site assessment Review Action Plan dated
         program to the EPA’s        November 26, 2013. OSWER
         existing workload.          expects the revision will
         Document and                address the components of
         communicate decisions       this recommendation,
         made in EPA records.        including establishing criteria
                                     for determining whether pre-
                                     screening is warranted,
                                     identifying the point at which
                                     potential sites should be added
                                     to the existing workload, and
                                     describing records
                                     management and
                                     communication requirements.



14-P-0302                                                                                          22
 2-a   Refine the process for       OSWER agrees with this           4th Quarter FY 2014
       tracking non-petitioned      recommendation.
       sites referred to the EPA
       Superfund site assessment    OSWER’s corrective action
       program, including:          applies to sites that pass the
       a. Definition of a           criteria to be developed in
       reasonable timeframe that    response to Recommendation
       pre-CERCLIS screenings       #1 (i.e., sites determined by
       and site assessments         EPA to need completion of a
       should be conducted. If      pre-screening report).
       needed, a discovery date
       should be entered as well    OSWER plans to define an
       as target dates for future   average expected timeframe
       assessments.                 for performing pre-screenings
                                    in the revised pre-screening
                                    fact sheet and/or EPA’s
                                    Superfund Program
                                    Implementation Manual
                                    (SPIM).

                                   In addition, EPA’s Superfund
                                   Enterprise Management
                                   System (SEMS) became
                                   operational in December,
                                   2013 and subsumed EPA’s
                                   CERCLIS database. SEMS
                                   includes a new project
                                   management software
                                   component that uses default
                                   durations to develop a draft
                                   site project schedule. Default
                                   durations for site assessment
                                   activities have been
                                   programmed into the project
                                   management software thereby
                                   establishing target dates for
                                   future assessments when new
                                   sites are added to the SEMS
                                   active site inventory.
 2-b   Establishment of a tracking OSWER agrees with this            4th Quarter FY 2014
       mechanism for any           recommendation.
       backlog of pre-CERCLIS
       screenings.                 OSWER’s corrective action
                                   applies to sites that pass the
                                   criteria to be developed in
                                   response to Recommendation



14-P-0302                                                                                  23
                                      #1 (i.e., sites determined by
                                      EPA to need completion of a
                                      pre-screening report).

                                      SEMS provides the ability to
                                      add a new site record when a
                                      determination has been made
                                      that pre-screening is
                                      warranted. SEMS users can
                                      add site name and location
                                      data along with planned and
                                      actual start and completion
                                      dates for pre-screening work.
                                      OSWER plans to develop a
                                      computer tracking report
                                      displaying new sites added to
                                      SEMS which need pre-
                                      screening work completed.

 2-c   Periodic reviews to ensure     OSWER agrees with this              4th Quarter FY 2014
       that sites in the assessment   recommendation. The
       backlog have appropriate       Superfund Program
       qualifiers that indicate       Implementation Manual
       priority level for further     (SPIM) describes appropriate
       assessment.                    qualifiers that indicate priority
                                      level for further assessment
                                      beginning with the
                                      Preliminary Assessment and a
                                      SEMS data quality report
                                      exists showing missing action
                                      qualifiers. OSWER will add
                                      an instruction to the SPIM
                                      requiring review of the data
                                      quality report on an annual
                                      basis. OSWER will explore
                                      the benefit of adding
                                      qualifiers to pre-screening and
                                      remedial site discovery
                                      activities in SEMS and update
                                      the SPIM as necessary.
 3     Assess existing EPA            OSWER agrees with this              Guidance Assessment:
       guidance for addressing        recommendation. OSWER               2nd Quarter FY 2015
       lead contamination in soil     plans to work with regional
       within the Superfund site      offices in assessing existing       Revised Guidance (if
       assessment process and         guidance relating to the            necessary):
       obtain input from the          Superfund site assessment           4th Quarter FY 2016



14-P-0302                                                                                        24
       regions to determine           process to determine if
       whether any updates are        updates are warranted with
       needed and revise as           respect to addressing lead
       appropriate. Include the       contamination in soil.
       following issues in the
       assessment:                    OSWER’s assessment will
       a. Amount of resources,        include consideration of the
       level of effort and methods    elements described in parts
       used to link lead              3a, 3b, and 3c of the OIG’s
       contamination to a source.     recommendation.
       b. Cleanup or other actions
       needed at sites when           OSWER will revise guidance
       background contamination       or issue new guidance as
       levels are above screening     necessary based on the
       levels, including those in     outcome of the guidance
       urban areas.                   assessment.
       c. Determination of actual
       and/or potential health
       impact on communities,
       including whether a
       referral to another agency
       or program for further
       review or health-based
       testing is necessary.
 4     Clearly post the August        OSWER agrees with this        3rd Quarter FY 2014
       2012 lead smelter strategy     recommendation. OSWER
       document on the EPA’s          will post the 2012 lead
       website.                       smelter strategy on an Agency
                                      web page.
 5     Following completion of        OSWER agrees with this        1st Quarter FY 2015
       the 2012 Strategy, create      recommendation. OSWER
       and post a summary of the      plans to develop a summary
       results of the EPA’s efforts   of results based on EPA’s
       to address sites included in   implementation of the 2012
       the strategy and, as           lead strategy, including
       applicable, any findings       applicable findings and
       and recommendations on         recommendations. OSWER
       the EPA’s website.             will post the summary on an
                                      Agency web page.

CONTACT INFORMATION
If you have any questions regarding this response, please contact Doug Ammon, Site Assessment
and Remedy Decisions Branch Chief in the Office of Superfund Remediation and Technology
Innovation on (703) 347-8925.

Attachments



14-P-0302                                                                                 25
cc:   Barry Breen, OSWER
      James Woolford, OSWER/OSRTI
      Dana Stalcup, OSWER/OSRTI
      Doug Ammon, OSWER/OSRTI
      Randy Hippen, OSWER/OSRTI
      Tina Lovingood, OIG
      Jill Trynosky, OIG




14-P-0302                           26
                                                                        Appendix B

                                   Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Assistant Administrator for Solid Waste and Emergency Response
Director, Office of Superfund Remediation and Technology Innovation,
       Office of Solid Waste and Emergency Response
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response




14-P-0302                                                                            27
